Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERA





STATE EVALUATION OF MEDICAID

MANDATORY SECOND SURGICAL

     OPINION PROGRAMS





                Richard P. Kusserow

                INSPECfOR GENERA


                    OEI-03-89-01530
                   EXECUTIVE SUMMAR Y

PUROSE
Ths report provides inormation on recent State evaluations of Medicaid mandatory
Second Surgical Opinion Programs (SSOPs) and their implications for the Health Care
Financing Admstration s (HCF A) proposed reguation requing such program.
companion report sumaries common elements of States ' mandatory SSOPs (OEI­
03- 89- 01531 ).

BACKGROUN
Section 1902(a)(30)(A) of the Social Securty Act requies that Medicaid State plans
contain safeguards against unnecessary utiltion of servces and assure that payments
are consistent with effciency, economy, and quality care.


States curently use second surgical opinion programs (SSOPs) as a utiliztion
safeguard. These programs requie     clients to   obtai independent medical opinons
prior to elective surgery. The SSOPs encourage patients to be more informed and
involved in their medical treatment. It is believed that this education enables patients
to make better decisions and thus lead to improved care and cost savings from
foregone surgeries.

SSOPs in th Medaid Prgrm

The earliest Medicaid mandatory SSOPs were established in 1976. In 1983 , the Offce
of Inspector General (OIG) advised HCFA to establish mandatory SSOPs for
Medicaid and Medicare. The OIG estiated HCFA could save $157 mion anually
by adopting mandatory SSOPs for both programs. The HCF A rejected the OIG'
recommendation , caling for further analysis.

In 1986,   HCFA proposed a reguation requig        a mandatory SSOP in each State
Medicaid program. The proposed reguation would permt a State not to implement a
mandatory SSOP if its curent review program achieved the objectives of being cost
effective and preventing unecessary surgery. In 199, HCF A tentatively decided not
to implement the proposed reguation. At that time, 14 State Medicaid programs
were using mandatory SSOPS.

As par of the Omnbus Budget Reconcilation Act of 1990 (OBRA 90), HCFA must
complete by January 1 , 1993 , a report to Congress on States ' utiliztion review systems
for certain Medicaid servces. Section 4755(b)(2) of OBRA requies the report to
address the effects of such servces on patient access to necessary care , quality of care
and cost of care.
 MEODOLOY
 Durig 1990   we gathered      inormation from all 50 States and the District of Columbia
 to determe whether they had mandatory SSOPs or a precertifcation review
 program. We obtaied      detailed information from the 14 States with mandatory
 SSOPs , includig site visits to 4 States (Colorado , Masachusetts , Michigan . and
 Pennsylvania).

FIINGS
        Cuent SSOP evaluative data is lited and inconclusive.

       Al but two   States have review programs other than mandatory SSOPs. Most
       use precertifcation review.



       Current data is insufcient to support mandatig SSOPs.
RECOMMATION
We support HCFA' s intention to withdraw the proposed reguation mandating SSOPs
in the Medicad program.

We recommend that HCFA, upon completion of its report to Congress, assess what
additional information is necessary to determine if States are successfuly
against unecessary utiltion.                                                guardig

HCFA COMM             AN OIG REPONSE
The HCF A agreed with our recommendation to withdraw the proposed reguation
mandating SSOPs in the Medicaid program. However, they did not agree to requie
States to submit utition data and analysis which would permit HCF A to evaluate
the effectiveness of the varous approaches , at least until January 1 , 1993 , when a
report analyzg State utition review is due to Congress.

Whe we agree that it is not necessary for States to submit data until the report is
submitted to Congress , we continue to believe in the appropriateness of determg
the effectiveness of States   ' utiltion   review programs. We have modified our
recommendation to take the report to Congress into account.

The fu text of comments from HCFA are included in Appendi B.
                                                                              . . . . . . . . . . . . . . . . . . . . . . .......... ...
                                                                                                                                      . .. ..   . ... ... ... ... ..... .. .. .. . ..
                        . . . . . .. .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... .. .. .. .. .. .. .. .. .. ..




                     TABLE OF CONTENTS

EXCU SUMY


INODUCfON .


FIINGS
          Cuent Evauatie Data                                                                                                                                    ......5
          Oter State Revew Progr                                                                                                                                              .. 7

          Efec on Propoed     Reguation. . . . . .


RECOMMATION. .


APPENIX             States with Madatory SSOPs                                        in 199 . . . . . . . . . . . . . . . . . . .. A­


APPENIX B: Comments from the Heath Cae                                                        Finci                     Administrtion                                          B-1
                                INTRODUCTION

PURE
Ths report provides inormation on recent State evaluations of Medicaid mandatory
Second Surgical Opinion Programs (SSOPs) and their implications for the Health Care
Financing Admstration s          (HCF A) proposed reguation   requig such program.
companion report sumaries common elements of States ' mandatory SSOPs (OEI­
03- 89- 01531 ).

BACKGROUN
Section 1902(a)(30)(A) of the Social Securty Act requies that Medicaid State plans
contain safeguards against unnecessary utiltion of care and servces and assure that
payments are consistent with effciency, economy, and quality care.

States currently use SSOPs as a utiltion safeguard. These programs requie clients
to obtain independent medical opinons prior to elective surgery. A second opinon
either confis or refutes the necessity of the proposed surgery. The SSOPs
encourage patients to be more informed and involved in their medical treatment. It is
thought that this education wi enable patients to make better decisions which
lead to improved quality of care and cost savigs from foregone surgeries.

Ini SSOPS
The fist national SSOP was established in New York in 1972 as a joint venture
between Cornell-New York University and a Taft- Hartley benefit     fud. Dr. Eugene
McCarthy established and administered the SSOP.

In 1974,Dr. McCarhy reported a 18. 7 percent rate for nonconfing second
opinons. Ths resulted in program savings of $2. 63 for every dollar spent. The report
generated interest in Congress which was considerig ways to contain Medicaid and
Medicare costs.

The earliest Medicaid mandatory SSOP was established in Massachusetts in 1976.
Michigan also established its SSOP in 1976.

HCFA Imple               Volu    sSOP for Medar

Durg 1976          and 1977 ,
                        the House of Representatives ' Subcommttee on Oversight and
Investigations of the House Commttee on Interstate and Foreign Commerce (known
as the Moss Committee) conducted hearigs on unecessary surgery and its effect on
spiraling health care costs. The Moss Commttee recommended that the then
Department of Health , Education , and Welfare promptly institute a program of
independent professional second opinons to   conf the need for elective surgery
underwtten by Medicare and Medicaid. To comply with this request, HCF A
implemented a national Medicare voluntary SSOP in September 1978. Prior to th
HCFA had intiated several second opinon demonstration projects in 1977.

198111982 Abt   Evaltin of sSOPs
Under a HCF A contract, Abt Associates , Inc., evaluated the voluntary Medicae
demonstration second opinion program and a mandatory Medicaid SSOP in
Massachusett. The Abt report concluded that only mandatory programs could
achieve cost savings because of the low participation rate in voluntar SSOPs. The
report noted substantial savings for the mandatory SSOP in Massachusetts, where the
SSOP reduced the volume of surgical procedures by 20 percent, thereby savig an
estimated $1   mion annually.
Mandatory SSOPs are effective because of a phenomenon known as the sentinel
effect. The sentinel effect operates by creatig an environment in which physicians
recommend fewer surgeries because they know their decisions will be reviewed by
second surgical opinon consultants. However, voluntary SSOPs have not benefitted
from the sentinel effect because most beneficiaries do not seek a second opinon.

Ofe of Insctor Gen (DIG) Recomm Manry                     SSOPs

In a 1983 report , the OIG advised HCFA to establish a mandatory SSOP for both
Medicaid and Medicare. At that time , seven States had implemented mandatory
SSOPs; three of these States claimed substantial savigs. The OIG estimated HCF
would save $157 milion annualy by adopting a mandatory SSOP for both programs.


The HCF A rejected the OIG' s recommendation, citing limited experience with
mandatory SSOPs in the private and public sectors. The HCF A called for    fuer
analysis of existing second opinion programs before proceedig with any proposal to
establish a mandatory SSOP for either Medicaid or Medicare.

Manry SSOPS Prpoed by HCFA
       HCF A proposed a regulation requirg mandatory SSOPs in State Medicad
In 1986 ,
programs. The proposed reguations requied , at a minium , that a mandatory SSOP
be applied to 10   common elective surgical procedures. The reguation   was designed to
promote mandatory SSOPs nationally. However, HCF A would permt a State not to
implement a mandatory SSOP if it curently operated a review program that achieved
the objectives of being cost effective and preventing unecessar surgery.
Cuen Stl        of   Regn
The proposed mandatory SSOP reguation has never been fialied. The 1986
Omnibus Budget Reconcilation Act (OBRA 86) precludes HCFA from isswng
                form until 180 days after releasing a report on the matter.
reguations in fiai


In June 1989,   HCF A reported on high volume and high payment procedures in the
Medicad population. The report contained inormation on States ' SSOPs. It
contained no recommendations.

In 1990,   HCF A made a tentative decision not to   fial the proposed mandatory
SSOP reguation. At that time, 14 State Medicaid programs were using mandatory
SSOPs.

As part of the Omnibus Budget Reconcilation Act of 1990 (OBRA 90), HCFA must
complete by January 1 , 1993 , a report to Congress on States ' utilation review systems
for certain Medicaid servces. Section 4755(b)(2) of OBRA requies the report to
address the effects of such servces on patient access to necessary care , quality of care
and cost of cae.

SSOPs in th     Prat Secr
Cuently, commercial       insurers and Blue Cross and Blue Shield plans insurig more
than 47    mion people do not actively market SSOPs as a stand-alone product.
They continue to provide it as one component of a complete quality assurance and
utiltion review      package. According to these insurers , the substantial savigs
documented when SSOPs were first introduced are no longer possible because
recommendations for elective surgery are usually confed.

Managed Cae Organitions have also moved away from stand-alone SSOPs. They
do not market SSOPs as a tool to achieve cost savigs. However, some employers sti
purchase the program as part of a larger utiltion review package to educate
employees and enable them to participate more fuy in health care decisions.

MEODOLOY
Durig 1990, we gathered information from all 50 States and the District of Columbia.
We contacted all Medicaid agencies to determe how many curently have mandatory
SSOPs or have considered one in the past. We also asked if they were using a
preadmssion, pre certification , or prior approval program.

We contacted the 14 States with mandatory SSOPs and requested detailed
inormation. We visited Colorado, Massachusett, Michigan, and Pennsylvania to learn
fist-hand about their programs. We conducted structued telephone intervews with
the remaing States. The information requested included: year established, length of
the program ,  program admtrator, objectives , procedures covered , reimbursement
mechanism ,   nonconfation rate, and evaluation of the program.
We reviewed pertinent reports by HCFA' s Offce of Research and Demonstrations.
We also analyzed published report   on   SSOPs in private sector literature.
                                     FINDINGS

CU               SSOP EVALUATI DATA IS         LI           AN INCONCLUSIVE
Few   Sta hae         evaluated   th mary SSOPs      an   evaluati wer
Thee States (Michigan, Wisconsin , and Colorado) evaluated their SSOPs in 199.
Eleven States have not evaluated their SSOPs withi the last 2 years. Foureen States
had mandatory SSOPs in calendar year 1990. (See Appendi A for a list of these
States. )

The Michigan and Colorado evaluations were lited in scope while Wisconsin'
evaluation was much broader and is ongoing.

Michiga.        The Michigan Medicaid agency used   data on the total number of requests
for second opinon , the total number of second      opinions given ,
                                                              the total number of
surgeries confed, the total number of surgeries not confied, and the total
number of surgeries actually performed. The evaluation also included inormation on
the costs of the second opinon program and the hospital admssion and utiltion
program. Additionally, a routine retrospective review was performed, under the
hospital admssion and utilition program, on a limted number of actual surgeries.

Colorado. The Foundation for Medical Care , a provider of medical review for both
Medicare and Medicaid , evaluated data for two surgical procedures. The Foundation
compared Medicaid utiltion rates with a non-Medicaid group which had simar
demographics.

Wisconsin.        University of Wisconsin-Madison , Center for Health Systems
                The
Research and Analysis , Medicaid Evaluation Program , is under contract to perform an
evaluation of the State mandatory SSOP. The evaluation is focused on two program
outcomes: the estimated change in the number of surgeries performed as a result of
the program and the resultant cost implications. Using fiscal year 1987- 88 data for
two procedures , researchers compared for selected individuals , the medical cost per
cae for those electing surgery with those decidig to forego surgery. They estimated
the number of individuals that would forego surgery as a result of the program.
addition , the Medicaid Evaluation Program compared program savigs to program
costs , includig admistrative and second opinion consultation costs. The remaig
eight procedures are scheduled to be reviewed in a similar manner.

A recent HCF A study reported that few States had evaluated their SSOPs for cost
savigs. The 1989 mandated HCFA report to Congress              High Volume and
                                                            , entitled


High Payment Procedures in the Medicaid Population provided detailed information on
11 of the 13 mandatory Medicaid programs in operation at that time. (Two of the
States did not provide information.

The report lited only three States -- Oregon, Virgia,   and   Washigton -- that
calculated the savigs they believed accrued to their program as a result of the
mandatory SSOP. The State evaluations were performed in 1987 or earlier. Oregon
reported savigs of $394 982 for the period July 1, 1986 to June 30, 1987;   Virgi
reported savigs of $961 521 for caendar year 1986; and Washigton reported savigs
of $656 00 for the period January 1, 1982 to December 31 , 1982.

Reen   evaluati   re ar inons
Cuent evaluations reveal that SSOPs are not producing consistent results. Ths is in
contrast to the earlier evaluations that demonstrated that mandatory SSOPs were cost
effective and were reducing unecessary surgeries.

Michigan discontinued its ll-year-old SSOP in 1990. They provided us with a number
of reasons for discontiuing their program.

                                         nonconfg second opinion had the
       Firt, half of the clients receiving a
       surgery anyway. (Michigan s program allowed clients to decide whether to have
       surgery, even if they received nonconfg second opinions.

       Send, about three percent of the surgeries reviewed under the hospita
       admssion and utiliation program were found to be medically unnecessar.

       Thd, foldig the mandatory SSOP into the hospital admssion and utiltion
       review program would reduce provider and recipient confusion and be just as
       effective at holdig down the incidence of elective surgeries. In fact, their
       analysis indicated that Medicaid would save $60 00 by folding the mandatory
       SSOP into the hospital admission and utiltion    review   program.

       They also felt that the hospital admission would enable the State to keep
       abreast of the latest treatment alternatives and review criteria for elective
       surgeries. Rather than relyig on individual physicians, the State would asume
       the job of ensurig that the most curent treatment alternatives and criteria are
       used.

       Four physician practice patterns had changed since implementation of the
       SSOP. It was thought that the drop in the incidence of elective surgeries is
       party attributable to the fact that the physician communty is much more used
       to the whole concept of utiliztion and peer review. Michigan concluded that
       whie a second opinion was an appropriate and effective response 11 years ago
       it is not today.

Colorado s evaluation found the program worthwhie. The rate per 100 non-
Medicaid members for the two surgical procedures reviewed was lower for the
populations havig the second opinion program. The rate was even lower per 100
Medicaid members under the second opinon program.
Wisconsin s SSOP is curently being evaluated, 1 and thus far, two procedures have
been reviewed. The evaluation indicates the SSOP is meeting the stated objectie     of
reducing the number of surgeries performed. Medicaid expenditures have been
reduced as a result of individuals electing to forego surgery after having the second
opinion. However, only one of the procedures had a favorable savings- to-cost ratio.
Ths is in contrast to the fist evaluation in 1981 which documented cost saVings and
the second evaluation in 1985 which documented a break-even point.


AI Bur     TWO HAVE REVIW PROGRA OTH
                    STATE

MAATORY SSOP. MOST USE PRECETICATION REVIW.
Most States have chosen review programs other than mandatory SSOPs. Of the States
without a mandatory SSOP , 34 States and the District of Columbia use a
precertifcation or preadmssion review process to avoid unnecessary surgeries and
hospital admsions. The pre certifcation process requies that the State s review agent
be informed prior to treatment as a condition for fu benefit coverage. A
determnation is then made as to the appropriateness of treatment and proposed site
of servce.

Of the 34 States with precertifcation programs , 22 considered a mandatory SSOP.
However, 14 of the 22 have no plans for implementation. Only 2 of the 22 have
future plans for implementation. Five did not know and one had already discontiued
its second opinon program. Almost half of those that had no future plans for
implementation concluded that a SSOP was not cost effective. Some indicated that a
SSOP would not save them money or that it had become an obsolete cost contaent
tool.

Only two States (Oklahoma and South Dakota) have neither a mandatory SSOP nor a
pre certifcation   or preadmssion review process.

CU           DATA IS        INSUFCI TO SUPPORT MAATIG SSOPS.
The proposed HCF A reguation would require State Medicaid plans to include SSOPs
for certain surgical procedures. Its objectives are cost effectiveness and the prevention
of unecessa surgery. States using other review programs which HCF A determes
wi achieve these objectives are not requied to establish SSOPs.
The proposed reguation would base approval of a State s curent program on whether
its outcome is, at a mium , equal to the outcome of an SSOP. However, our review
has demonstrated a lack of outcome data for current SSOPs. This lack of data raises
doubts as to whether SSOPs should be requied.



     The results of this review were reported in early 1991.
Additionaly, without data HCF A would be unable to enforce the proposed reguation
because HCF A would have no performance indicators that could be used to exempt
States havig an alternative program. Ths is signcant since most States have a
review program other than a mandatory SSOP.
                              RECOMMENDA TION

We support HCFA' s intention to withdrw the    propo regution madati           SSPs
in the Medcad          progr
We contiue to support HCFA' s effort to ensure that States have methods to
safeguard against unnecessary utition of care and servces. When the reguation
was fist proposed in 1986, there was clear evidence of program savigs and
prevention of unecessary surgery resulting from mandatory SSOPs. At that tie it
would have been appropriate to require all States to implement a mandatory SSOP.

However, at this point little evaluatie data is available for mandatory SSOPs. Few
States have performed evaluations of their exiting mandatory SSOPs. Even when
evaluations have been done , the results do not conclusively indicate that mandatory
SSOPs are cost effective and successfu in reducing unnecessary surgeries. Without
this data, mandatory SSOPs should not be requied. Additionally, HCF A canot use
mandatory SSOPs as a standard to judge the effectiveness of other review programs if
data on mandatory SSOPs ' effectiveness is inconclusive.

In order for HCF A to carr out its responsibilties under section 1902, it should assess
the adequacy of State programs designed to guard against unnecessary utilition.
There is room for considerable flexibilty and experimentation in the approach to such
programs. These programs might use SSOPs but could use other methods as well
such as managed care or pre certifcation review.

Evaluation of the effcacy of these varous approaches is one goal of HCF A' s report to
Congress on utilation review. Afer completion of its report to Congress , HCF A
be in a better position to determe what additional inormation , or routine reporting
of data, is necessary for it to assess State compliance with section 1902(a)(30)(A).


as                    nec
We therefore recmmend that HCFA, at the completion of its report to Congres

gudig agat unec utition.
      what additional inormation is      to determe if State are          succ
                      HCFA COMM                AN OIG REPONSE

The HCF A agreed with our recommendation to withdraw the proposed reguation
mandating SSOPs in the Medicaid program. However, they disagreed that they should
requie States to submit utization data and analysis so they can evaluate the effcacy
of the various approaches.

The disagreement is based on the fact that HCF A does not want to requie        States to
submit data at least unti they complete their report to Congress on State utition
review systems. The report wi include an analysis of State utiltion review
procedures for ambulatory   surgery, preadmssion testing, and same- day surgery in
order to ensure these programs are appropriate for Medicaid patients. The report
address the effects of such programs on access, qualty, and costs of care.

The HCF A has indicated it will ensure that required information on utiltion review
programs is included in the Medicaid State plans. This could be helpfu if States
provide enough information to enable HCF A to make determinations on the effcacy
of various utition review programs.

We agree that it is not necessary for States to submit utilition data until the requied
report is submitted to Congress , since the report should provide insights on the impact
broader data collection requirements wi have on providers and States , as well as the
HCF A staff. However, we stil believe that it is appropriate to determe the
effectiveness of States '   utilition   review programs. We have modified our
recommendation to take the report to Congress into account.

The ful text of comments from HCF A are included in Appendi B.
                     APPENDIX A


              SlATE Wl MAATORY SSPS IN 199





                        COLORAO
                         INIAA

                        MAYL

                      MASACHUSETI
                        *MICHIGAN

                        MINOTA

                         MISSOURI


                        NEW JERSEY


                         OREGON


                       PENNSYLVANIA


                        TENNESEE

                         VIGINIA

                       WASHINGTON


                        WISCONSIN





. DISCONTD IN 199

           APPENDIX 





COMM FROM TI HETH CAR FIANCIG ADMITION

                                                                   ..-----
                                                                        :- - ..' ~~~~
                                                                      : ," '""     \. '"
                                                                                    ':-.'':...
                                                                                    . :.'
                                                                                      -   :.. .,"',
                                                                                          ..          " . .




",aYtnl,
                                                                                             Health Care
                                                                                             Financing AdministrDtion
           DEPARTMENT OF HEALTH &. HUMAN lbRV'CES

                                                                                             Memorandum
                                  .. J     f:
                                                   DIG-I
  Date WiI
                              t7./'J'   AIG-

  Subject rittti
  From Acting    Admistrator EXBB
                             OOJIG

                                                                          Second Suraica O inon
           OIG Draft Re ort - " State Evaluatio
           Programs (SSOPs), " OEI- 03. 89- 01530, and "
                                                         Medicaid Mandatory SSOPs: Sumares of
           State Programs, " OEI- 03- 89-01531

           Inspector General
           Ofce of the    Secretary



              We have reviewed the subject companion report. The fit-referenced
                                                                                                              dr report
           discusses the lack of curent outcome data
                                                     for mandatory SSOPs and the effect    has                   th
           on the 1986 proposed regulation mandatig SSOPs
                                                            for Medicad. The second-
           referenced report descnoes and summaries the common elements of the 14 States
           Medicaid SSOPs that were in existence in 199. Th latter report was isued as a final
           since it does not contain any recommendations.

              OIG found that 34 States and the District of Columbia use a precertifcation
           preadmission revew process instead of SSOPs to reduce
                                                                   intaces of unecessry
                                                                                     demonstrated
           surgeries and hospital admissions. OIG also found that whie past studies
           that mandatory priate sector SSOPs curtiled unecessa
                                                                      surgeries and produced
                                                                     SSOPs could not conclusively
           savings, the few evaluations avaiable of current Medicaid     unecessar sureries for
           determine that these programs were cost-effective or reduced     raies doubt as to
           Medicaid. OIG maintains that the lack of curent outcome data
                                                                                the Health Cae
           whether SSOPs should be required. Therefore, OIG concludes thatproposed regulation
           Financing Administration (HCFA) should withdrw the curenttht HCFA ensure tht
            which would mandate SSOPs. OIG did,      however, recommend
            each State establish the requisite utiliztion review program and require States to
                                                             to evaluate the effcacy of the various
            submit such data and analyses to enable HCF A
            approaches.

               We agree with OlG' s fidings and are currently considerig whether to withdraw the
            regulation mandating SSOPs in Medicaid. However,    we disagree with the aspect
                                                             utization data. Our specific
            OIG' s recommendation requiring States to submit
            coen.u Qn the report s recommendations are attached for your consideration.
                                                                                                drft report.       Please
                Thank you for the opportunity to review and comment ons this
                                                                        recoroendations at your
            advise us whether you agree with our position on the report
            earliest convenience.
                                                               I ( : "J.. Ov"'
                                                                           /7"
            Attachment
                                                                             .-t'

                                                                                 !\I
                Comments o               Care financin Administration (
                   on the GIG Draft Reports: II State Evaluation of Medicaid
                       ndatory Seconq. SurgicaJ Ooin1on prow
                                                              ams (SSO
                      o.Eh03- 89- 01530, md "        id Mandatorv SSOPs:
                        Summaries of State progrms. " OEI. 03- 89- 01531


Recommendation
                                                                                  review program
That HCFA should ensure that each State establish      the requisite utilzation
                                                                       A to evaluate the effcacy
and require States to submit such data and analyses to enable HCF
of the various approaches.

HCF A Resoonse


HCFA concurs with the first part of this recommendation. We are pleased that OIG
recognizes that there are several viable options for 

                                                       utiliztion review and we are currently
                                                                        SSOPs. However, we
considering whether to withdraw the proposed regulation mandating
disagree with the part of this recommendation that requires States to submit data.
                                                                         Security Act already
As noted by OIG in this report , section 1902(a)(30)(A) of the Social                      their
requires States to include safeguards against unnecessary utilzation   of medical care in
                                                                          diferent programs,
State plans. To satisfy this requirement, States are employing several SSOPs. We believe
including: precertification, preadmission review, coordinated care and           admissions
coordinated care systems represent the best mechanism for reducing hospital costs,
and lengths of stays prior to surgery. Therefore, while we win continue to encourage States to
choose coordinated care, we are reluctant to impose new mandates when States are already
meeting the existing requirement.

 With regard to the second part of this recommendation , we would not want to require that

 States submit data at least until HCFA completes its report to Congress on the State

                                                     section 4755(b)(2) of the Omnibus Budget
 utiHzation review systems. This report, required by 

 Reconcilation Act of 1990 (OBRA 90), is due to
                                                   Congress on January 1, 1993. OBRA 90

                                                                                    for

 requires that the repo" include an analysis of State utilzation review procedures
                                                                           to ensure these

 ambulatory surgery, preadmission testing, and same-day surgery in order
                                                                    address the effects of such
 programs are appropriate for Medicaid patients. The report will
 programs on access, quality, and costs of care.
                                                 This study will give us valuable insights on the
                                                                                , as well as
 impact broader data collection requirements wil have on providers and States
 HCF A staff.

 We also believe this requirement may be unnecessarily burdensome given the current austerity
                                                                    States to submit utilzation
 of many State budgets. While we are not in favor of requiring
 review data at this time, we. will ensure   that required information on utilzation review

  programsJs-included in Medicaid State plans.
